2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Le g al Bri efs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-840

CALIFORNIA, ET AL.,
Petitioners,
Vv.
TEXAS, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR THE STATES
OF MARYLAND, MAINE, NEW HAMPSHIRE, NEW MEXICO, PENNSYLVANIA, AND
WISCONSIN AS AMICI CURIAE IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
8941 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 13th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

tn | Kence. 0. tows Onda, Ohl

Notary Public (7 Affiant

My Comm. Exp. September 5, 2028

 

 
